<html>
<title> - ``KEEPING THE NATION'S CAPITAL SAFE''</title>
<body><pre>[Senate Hearing 105-640]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-640


 
                 ``KEEPING THE NATION'S CAPITAL SAFE''

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON OVERSIGHT OF
                 GOVERNMENT MANAGEMENT, RESTRUCTURING,
                      AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 1998

                               __________

      Printed for the use of the Committee on Governmental Affairs


                               <snowflake>



                    U.S. GOVERNMENT PRINTING OFFICE                    
50-356cc                   WASHINGTON : 1998


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
SAM BROWNBACK, Kansas                DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
DON NICKLES, Oklahoma                MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                       Lynn L. Baker, Chief Clerk

                                 ------                                

SUBCOMMITTEE ON OVERSIGHT OF GOVERNMENT MANAGEMENT, RESTRUCTURING, AND 
                        THE DISTRICT OF COLUMBIA

                    SAM BROWNBACK, Kansas, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                     Michael Rubin, Staff Director
               Laurie Rubenstein, Minority Staff Director
                      Esmeralda Amos, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Brownback............................................     1

                               WITNESSES
                         Monday, July 27, 1998

Charles H. Ramsey, Chief of Police, Metropolitan Police 
  Department, District of Columbia, accompanied by Terrence 
  Gainer, Executive Assistant Chief of Police, and Mike 
  Fitzgerald, Assistant Chief, Technical Services................     3
James F. Foreman, Coordinator, Metro Orange Coalition............    12
Kirsten Oldenburg, Editor, Crimemail, D.C. Police Service Area 
  109............................................................    14

                     Alphabetical List of Witnesses

Foreman, James F:
    Testimony....................................................    12
    Prepared statement...........................................    44
Oldenburg, Kirsten:
    Testimony....................................................    14
    Prepared statement...........................................    48
Ramsey, Charles H.:
    Testimony....................................................     3
    Prepared statement...........................................    42

                                APPENDIX

Inspector General's Report of Investigation 98-0205..............    23



                 ``KEEPING THE NATION'S CAPITAL SAFE''

                              ----------                              


                         MONDAY, JULY 27, 1998

                                       U.S. Senate,
      Oversight of Government, Management, Restructuring,  
                       and the District of Columbia Subcommittee,  
                          of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:01 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.
    Present: Senator Brownback.

             OPENING STATEMENT OF SENATOR BROWNBACK

    Senator Brownback. The hearing will come to order.
    I want to start this hearing with a tribute to two heroes. 
In an era when sacrifice to some seems foolish and only a 
quaint notion of a bygone era to others, Officers Jacob 
Chestnut and John Gibson sacrificed their lives so that others 
might live.
    They are true heroes of our day, people to emulate, and 
people to pay tribute to. This grateful Nation will long 
remember their unflinching response when duty called. What more 
can a man give than to lay down his life for his brother? And 
these men gave it all, and for that, we can never thank them or 
their families enough.
    I would ask those that are present, if you would, to join 
me in a silent prayer for these two heroes.
    [Moment of silence.]
    Senator Brownback. Thank you.
    We have an open Capitol to our Nation, and that is as it 
should be. This is the people's place, where the people's 
business is conducted. Nearly 18,000 visitors a day pass 
through this Capitol Building of which we are but the current 
trustees. We should not keep the people from their place 
because of the craven acts of one. To do that, it seems to me, 
would let fear win and faith lose.
    We may need to tighten security, but let us not close the 
Capitol. The matter of the Capitol security is under the 
jurisdiction of another committee. It is under the jurisdiction 
of the Rules Committee, and they will be reviewing this matter 
thoroughly.
    Our hearing today is about crime in our Nation's Capital, 
Washington, DC, of which sadly Friday's shooting was only the 
latest installment of a bad situation. That, I can, though, 
note for the record, has been improving, but remains far, far 
too violent.
    The culture of violence and death that we see all too often 
across our Nation continues to play out in our Nation's 
Capital. One just has to ask and stop and think and reflect for 
a moment when will we change. When will it be different?
    I think the only answer we can say to that is when each of 
us do all we can to change and to orient ourselves much more 
towards life and towards living and caring and giving and 
helping.
    Tomorrow, I think it is fitting as well and appropriate 
that we will be giving a further tribute to these two officers 
that sacrificed so much that it just shocks the Nation and it 
shocks our conscience. Hopefully, it will shock us to action, 
too.
    The hearing that we are focused on today is about overall 
crime in the Nation's Capital, and in particular, we want to 
look at the 911 system.
    I would like to welcome everyone here today, especially our 
new police chief, Charles Ramsey, who has been on the job for 
some period of time. Chief Ramsey, we are happy to have you 
here with us today.
    I would also like to welcome our two DC residents, Kirsten 
Oldenburg and James Foreman. I am looking forward to hearing 
about their efforts to stop the spread of crime in their own 
neighborhoods.
    I certainly believe that close cooperation between law 
enforcement and local community leaders is absolutely vital if 
we are to change our Nation and if we are to improve the 
situation. We cannot just depend on the police alone.
    In May, the Subcommittee held a hearing with various DC 
faith-based charities. We heard from a number of individuals 
there who have been involved in trying to change the face of 
the Washington, DC, community, with some success, one person at 
a time. I believe we need more people like these involved in 
the lives of their neighbors. The Police Department has a tough 
enough job as it is without having to protect a passive 
community.
    A stronger bond needs to be built between neighborhood 
leaders and the police. Crime in the city is not a Police 
Department problem, as it is not in our Nation. It is the 
result of a community in need, and any solution needs to start 
within that community, or for us, within our Nation.
    I wanted to call this hearing to take a look at some of the 
grass-roots efforts that are being implemented to fight crime 
at the neighborhood level and also to examine the recent DC 
Inspector General's report on the emergency 911 system, of 
which we will discuss some more here today.
    Last month, the District's Inspector General released a 
report critical of the Metropolitan Police Department's 911 
emergency system.\1\ Unfortunately, results found that some of 
the calls were not being returned or were not being answered in 
a timely fashion. We want to review today, with the Police 
Chief, what has been taking place to get those corrected so 
that we can get response in the system quickly.
---------------------------------------------------------------------------
    \1\ The Inspector General's Report of Investigation 98-0205 appears 
in the Appendix on page 23.
---------------------------------------------------------------------------
    I believe that it is crucial for communities within DC to 
develop positive relationships with the Metropolitan Police 
Department built on mutual respect and on confidence. Folks 
should have a sense of security in a place that they live, 
work, and do business.
    I am aware of some programs that the MPD has established to 
address this problem, such as the Police Service areas, and I 
look forward to discussing those.
    I also look forward to hearing from the citizens' side and 
discuss what they are doing in their own communities to aid the 
police in our Nation's Capital.
    With that, I would like to welcome Police Chief Ramsey. If 
you would care to come up to the table, Police Chief, to begin 
the testimony here today and to introduce the other gentlemen 
that are with you.
    As I stated at the outset, I welcome you to your position 
of Police Chief. I know you have been in the job for some 
period of time. I have also noted that violent crime in our 
Nation's Capital has gone down substantially, but it is still 
at far too high of a level, and we see tragic events that 
happen all around us that just draw that more into sharp focus 
for us. So I look forward to your testimony here today.
    Police Chief Ramsey, thank you for joining us here today.

      STATEMENT OF CHARLES H. RAMSEY,\1\ CHIEF OF POLICE, 
     METROPOLITAN POLICE DEPARTMENT, DISTRICT OF COLUMBIA, 
 ACCOMPANIED BY TERRENCE GAINER, EXECUTIVE ASSISTANT CHIEF OF 
    POLICE, AND MIKE FITZGERALD, ASSISTANT CHIEF, TECHNICAL 
                            SERVICES

    Mr. Ramsey. Thank you for inviting me, sir. I have looked 
forward to being able to spend time now talking about a couple 
of very critical issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ramsey appears in the Appendix on 
page 42.
---------------------------------------------------------------------------
    Before I get started, though, I would also like to thank 
you for the comments you just made regarding the two officers 
that recently lost their lives last Friday. They are indeed 
heroes. On behalf of the entire Metropolitan Police Department, 
I would like to extend my condolences to the families of both 
officers.
    We were there Friday during that scene. It was a very 
tragic situation that took place, but, again, it does point out 
the fact that day in and day out, men and women across this 
country do put themselves in jeopardy in order to see to it 
that the rest of society can remain safe. It is incidents like 
this that heighten that awareness of the sacrifices that are 
made on a regular basis. So thank you very much for those 
words. I am sure it means an awful lot to not just the families 
of those officers, but to law enforcement families throughout 
the country, it means a lot.
    Senator Brownback. I thank you for what you do and what you 
symbolize and represent in the police, and those that keep us 
safe.
    Mr. Ramsey. I would like to introduce two people that are 
here with me. Terrence Gainer is the Executive Assistant Chief 
of Police. He has been with us now for 2 months. He is my 
second-in-command. He was formerly the director of the Illinois 
State Police for about 8 years, and agreed to come with me here 
to Washington.
    I have Mike Fitzgerald on my right, who is the Assistant 
Chief in charge of Technical Services. Technical Services is 
the bureau that covers the 911 system. The Communications 
Section is in his bureau.
    Senator Brownback. Good.
    Mr. Ramsey. So he will be able to answer some of the more 
technical questions that you may have about this system and how 
it functions.
    I have prepared written testimony, sir, which has been 
submitted in advance.
    Senator Brownback. I would prefer if you approve not to 
read from that, but rather to just let that stand and cut to 
the chase and really get into the heart of the matter because 
you raised some very important issues.
    I agree with you wholeheartedly that the 911 system is 
something that we need to pay close attention to. It is a 
lifeline, if you will, not only for citizens, but for our 
officers as well. I think Friday's events points out the need 
to be able to get people on the scene of an event very quickly.
    Mr. Ramsey. Fortunately, that was one incident where 
responses was quick. As a result of that quick response, we 
were able to detain witnesses to that particular crime, get 
emergency response there in the form of ambulances and so 
forth, and I think that that kind of thing is something that is 
not only expected. You should demand that from us that you have 
a system that works. When you call 911, you should have a 
reasonable expectation that the police will come, and come 
very, very quickly.
    Unfortunately, that has not always been our history here, 
and Inspector Prettyman's report highlighted that. I would like 
to just give you a glimpse of some of the things since that 
report came out that we are doing right now in order to try to 
correct some of those problems.
    The long-term solution to the problem is a new center, and 
I will talk about that later because the one we currently have 
is really not adequate enough to handle the volume of calls 
that come into our department. We handle almost 2 million calls 
for service annually, and that is quite a few calls for 
service. And we need a system that can handle that.
    But just very quickly, let me just address a couple of the 
findings that Inspector Prettyman had in his report, and let 
you know where we are at right now in terms of trying to deal 
with that.
    The first finding, it dealt with our inability to answer 
emergency calls within 5 seconds and non-emergency calls within 
12 seconds. Those are considered to be national standards in 
terms of response.
    The report found that of the 250,000 calls that they took a 
look at during the first 5 months of 1998, we had only 
responded in under 8 seconds to about 167,000 of those calls. I 
asked at the time whether or not any of those calls were 
answered under 5 seconds, and I was told that they were unable 
to really give us an exact count of the numbers of calls 
answered under 5 seconds. So we do not know how many of that 
167,000 was actually within the accepted time frame, but it 
still points out to a problem that we are not getting to the 
calls for service quick enough.
    One of the reasons why, as pointed out in a report, was a 
staffing issue. Since that report has come out, what I have 
done is I have assigned 20 limited-duty police officers to the 
Communications Section, to shore up personnel there. They bring 
with them a great deal of experience in knowing what is 
required in terms of answering calls for service, dispatching 
calls to units in the field. These are people that, because of 
injuries and other types of reasons, are unable to perform in a 
full-duty capacity. So we did not take people off the street in 
order to do this.
    We utilized limited-duty personnel throughout the 
Department in order to help us with some of the administrative 
tasks that need to be done in the Department, and we have 
detailed 20 people to the Communications Center. Now, that is 
spread out across all three shifts. That is not 20 working at 
any one time. That is spread out across the three shifts, but 
that has added to our personnel.
    When needed, overtime is approved if we need that in order 
to fully staff our positions. Full staffing for us would be 15 
call-takers and 11 dispatchers. That would be full staffing.
    Because of the high rate of absenteeism in the 
Communications Section, which is a problem that we have been 
working on--my understanding, for several years now, we have 
had a problem with sick leave abuse in that particular unit--
this has helped tremendously in that.
    We have posted vacancy announcements for 26 positions that 
are currently vacant in the Communications Section, and we have 
posted those positions for hire. And our Personnel Office is 
working toward trying to bring in civilians that can make up 
the staffing so that we do not have to keep those officers 
there for any extended period of time because there are other 
functions, and some of them will be returning to full duty, 
quite frankly, at some future point in time if it is a health-
related type of injury, if that is why they are limited duty.
    Another thing that came out in the study was the fact that 
our dispatchers are paid at a rate that is substantially below 
our neighboring jurisdictions. We have proposed legislation to 
upgrade the wages for those individuals assigned as call-takers 
and dispatchers. It is currently pending before the Council for 
the District of Columbia for their approval.
    I think that is very important because one of the reasons 
why we have difficulty in maintaining staffing levels is 
because people, once they learn those jobs, leave us and go to 
other jurisdictions because they can make substantially more 
money doing the same thing. So it makes it very difficult to 
keep people in those positions when you are not competitive 
salary-wise, and we are taking steps to try to deal with that.
    We are also looking at training that can enhance employee 
performance. I do not think we do nearly enough in this 
organization as it relates to training; in particular, training 
of our civilian personnel. That is a very vital role in the 
Department. Everything begins there at the 911 Center.
    We need to have better training for our personnel so that 
once they do respond and answer calls, they are capable of 
being able to deal with any emergency that they may be faced 
with at that particular moment.
    I realize that we have problems with our 911 Center, but I 
also do not want to overlook the fact that thousands of calls 
come into that Center on a daily basis, and a vast majority of 
them are handled efficiently and professionally. And the men 
and women that perform that task day in and day out--and it is 
an incredibly stressful job--deserve some credit for the 
positive things they do, but, again, that is not to say that 
there is not room for improvement because there is room for 
improvement. And the Inspector General's report certainly 
points that out.
    His second finding, which I touched on briefly, dealt with 
the fact that there seems to be an abuse of sick leave which is 
one reason why we cannot maintain staffing. I will get into 
that in just a little more detail for you now.
    The director of Communications Division is closely 
monitoring the use of sick leave, looking for abuse patterns 
with particular employees, and we will take corrective action 
against those people who are abusing the medical-roll system 
that we have in place within the Metropolitan Police 
Department, but a lot of the reasons, I think, why people tend 
to go on the medical roll rather than report to work is really 
because of stress-related types of illnesses.
    One of the things that we have done is we have contacted 
Dr. Beverly Anderson, who is the administrator of our Employee 
Assistance Program, to come up with a comprehensive stress 
management program. We have to find ways not only in the 911 
Center, but I think policing in general. Very little has been 
done internally in most departments to really help police 
officers and other members of the Department effectively deal 
with the stress associated with their jobs. It is very 
difficult to be in a position where every time the phone rings, 
someone's life could very well hang in the balance. That is an 
incredibly stressful situation to be in, day in and day out.
    We do not do a good job in helping people manage that. The 
long hours that they have to work--I do not know if you have 
ever seen our Communications Center. I would be glad to show it 
to you, but it is certainly not a place that you would like to 
spend a great deal of time in. It is an old facility. It was 
not really designed with a lot of the more modern thinking that 
we currently have relative to environment and the way people 
function in those environments and how to help, you know, have 
lounge areas where people can get away from the stress and be 
able to relax and so forth. It is a very confined space, but we 
are working with Dr. Anderson to put together a good stress 
management program for our personnel, and also working with the 
Renaissance Clinic Counseling Center that is also participating 
in that.
    The last finding, one that I take some exception to, but I 
do understand and agree somewhat that perhaps there is validity 
to this, and that is that we are not responding in a timely 
phased fashion to the scene of emergency and non-emergency 
requests for assistance. That basically was the result of their 
reviewing 300 citizen complaints that came in during 1997 
relative to slow response on the part of the police.
    I think that when you stop and consider that almost 2 
million calls for service came across that system, to pick out 
300 and draw that kind of conclusion is a bit unfair, but I 
think that there is room for improvement there, and let me tell 
you a couple of things we are doing in order to deal more 
effectively with that.
    We had a practice in the past, when people called 911, the 
dispatchers would not give them a time frame in which they 
could expect the police to arrive. They would simply just say, 
``We will send the police.''
    Well, if you tell me you are going to send the police, I 
immediately go to the window, start looking outside, do not 
want to miss them. I want to make sure I am there when they 
arrive. If they come an hour later, usually you would be upset 
about something like that.
    If you have a situation that the police are being 
dispatched, but it is not of an emergency nature, a Code-1 type 
of call, where our immediate response is needed because the 
person has been injured, an offender is on the scene, what have 
you, or there to take a report for something that is not 
considered to be a priority one, oftentimes there is a delay in 
dispatching. We now have changed our policy where if we know 
that it is going to be because of the volume of work that is 
taking place that particular night under that particular PSA or 
in that district, we give people a realistic time frame. If it 
is going to be an hour, we will tell them it will be about an 
hour before the unit arrives. That makes it easier for people 
in a lot of ways because I think that some of the complaints we 
have, we can avoid by simply just communicating better to them 
how long it is going to take.
    As far as the Code 1, priority-one types of calls for 
service, once that call is given to the officer, the response 
time is pretty much within the time frames that exist in other 
departments. It obviously depends on how close you are at the 
time the call comes out, but our response once the call is 
actually given out to the units in the field is really pretty 
good for Code-1 types of assignments.
    With the new PSA model--and I know you want to talk about 
the PSAs--there was, again, another policy change that was not 
effectively communicated to the public, and that is that 
because we are trying to maintain beat integrity and we are 
trying to have officers from the particular PSAs respond to as 
many calls on their individual PSAs as possible, that means 
that in many cases, some calls are stacked so that that officer 
can respond personally to those particular calls. It gets back 
to what I said earlier about not giving accurate information to 
people about when they can expect to actually see the police.
    In the past, the first available unit would be dispatched 
regardless of the call, but what that does is it breaks down 
beat integrity because now that officer that was assigned to 
patrol a particular PSA is pulled off that PSA to answer a call 
and another PSA and so forth, and it is kind of a domino effect 
when you start to lose beat integrity. Once you have lost it, 
it takes a long time to recover.
    So we try to categorize calls based on their priority, and 
the need for us to get there very, very quickly. Our problem 
has been in the past that we simply did not communicate that 
very effectively.
    One last thing about response time that kind of indirectly 
feeds into that is getting more active in marketing our non-
emergency number, 727-1010. Eventually, we would like to go 
toward 311, which is being used in Baltimore, and we are 
studying that now to really take a look at the feasibility of 
having a 311 system here in the District, but the more calls 
for service that could get off of our 911 system, the better 
off we all are. And people need to understand when it is 
appropriate to call 911 and when it is really better for them 
to call 311. Save those phone lines so when that call comes in, 
because we can handle up to 15 calls simultaneously. Otherwise, 
people get a recording and are asked to wait on the line, but 
if you have got a true emergency, you do not need to be waiting 
on the line. Of those 15 calls, I would be willing to bet you 
that at any given time, 6 or 7 of them are probably calls that 
should be on the non-emergency system.
    So that is something that we have to really pay a lot of 
attention to, really market. We asked the community to help us 
with that, so not to use 911 inappropriately. So, when people 
call and really do need help, we are in the best position 
possible to be able to provide that assistance to them.
    Just real quickly on our PSAs, since you had asked about 
PSAs, we are now 1 year into that new policing strategy, a 
community-oriented policing strategy that really brings beat 
integrity back in vogue.
    Years ago, you had the old foot policeman and you had the 
beat cops that knew very well everything that was going on in 
their areas of responsibility. Back in the 1960's, 1970's, and 
1980's, we just lost that in most jurisdictions. We got very 
incident-driven. Police officers pulled further and further 
away from the community, and beat integrity became something 
that was a thing of the past.
    Community policing brings all that back in place. We can 
work with community. We can form effective partnerships.
    I went to a meeting earlier today for the Alliance of 
Concerned Men that are very active in Benning Terrace, and 
prior to their involvement, Benning Terrace was an area that 
averaged seven or eight homicides per year. In the last year 
now, they have had one homicide in that 1-year period, and that 
is because the police, the community, the residents really 
began working together and having an effect on gang violence. 
And we need to extend that to the rest of the District of 
Columbia.
    We have been enjoying a decrease of crime. As of today's 
date, we have a 19-percent decline in part-one offense over 
last year. We are about 45 homicides below last year's total. 
So we are seeing changes in crime for the better, but there is 
still far too much crime that is taking place in the District 
of Columbia, and until we are at a level where homicides fall 
into single digits, in my opinion--in fact, there is no need to 
have any homicides because one is too many for the family that 
has to deal with the grief and the anguish of having lost a 
loved one.
    We have a long way to go to really get crime where it ought 
to be to make our city the safest city in the country, which it 
ought to be as our Nation's Capital, but we are moving in a 
positive direction as it relates to crime.
    I would be glad to answer any specific questions that you 
might have. I apologize if I kind of rambled on a little bit 
too long, but I wanted to give you an idea of where we are now 
and what we are trying to do to correct some of those issues 
that Inspector General Prettyman pointed out in his report.
    Thank you.
    Senator Brownback. I thank you for that, Mr. Ramsey.
    I was just sitting here listening to it, and your 
comments--to me, I was just sitting here thinking how thankful 
I am that you are willing to do your job, and the officers on 
either side of you are as well. We never say thank you enough, 
and we pull people up here in front of these committees all the 
time and say, well, why don't you do this and why don't you do 
that. Thank God, you are willing to do what you do, and that 
you are out on the streets and your officers are on the streets 
protecting people.
    I know on Friday, there was a slain police officer that was 
buried. He had been an undercover officer, and we have had a 
number of those happen in the DC area. And we just never say 
thanks enough for you and your fellow uniformed officers, men 
and women that protect us, and the Capitol Hill Police of what 
they do here as well.
    I am struck, though, too, as I sit here, and as I was 
flying back from Kansas today, we are all tired of the violence 
and the killing and the death that is taking place. So we hire 
more police officers, or we build more penitentiaries, or we 
pass more laws. Are there things we are not doing? Is there 
something that we can reach out and do more ourselves? Are we 
trying to do it too collectively and not individually? What is 
it we are not doing that we are still having so much violence 
and death in this culture?
    Mr. Ramsey. Sir, I do think that there are things that we 
are not doing, at least that we are not doing enough.
    The focus traditionally had always been on building more 
prisons and hiring more police officers. My personal feeling is 
that we have to really look to prevention and intervention and 
really put resources there as well.
    For years--and I am a 30-year veteran in law enforcement, 
and there was a point in my career where I thought just locking 
folks up and throwing away the key was the way to solve all our 
problems, but the longer I was in policing, the more I saw. And 
do not get me wrong. There are some people who do need to be 
locked up and the key thrown away, but I think that instead of 
us just looking at ourselves as being responsible for feeding 
the criminal justice system, we have an equal responsibility to 
help starve it. You help starve it by preventing people from 
going down the wrong path to begin with.
    I do not think we do nearly enough to really work with 
young people, to work with even ex-offenders; that once they 
have paid their debt to society, helping them assimilate back 
into society. I think prevention and intervention programs need 
to be as much as part of what we do as the enforcement side of 
things, and I do not think we do enough in that area.
    Senator Brownback. Are there things you could recommend for 
the Nation's Capital that we ought to be doing more of in that 
prevention program area?
    Mr. Ramsey. Well, there are a lot of areas, sir. One is 
certainly in dealing with young people. We have our 
Metropolitan Police boys and girls clubs, and, of course, 
people tend to look at things like athletics as being the 
solution to all our problems, and that is not what I am talking 
about. That is part of it, but we also have mentoring that 
takes place there. We have computer learning centers where 
kids, underprivileged kids that probably would never know what 
it is like to be able to use the Internet if it was not for a 
place like that where they could really come and use those 
kinds of facilities.
    We depend on donations in order to be able to keep those 
facilities up. Domestic violence is an area where more can be 
done on intervention. We know from analyzing that particular 
type of crime that after the first or second call for service 
to that location--usually, when you come back, some kind of 
violence has taken place, either a battery or, in some cases, 
unfortunately, even a homicide. If social services could be put 
in at an early-enough time where we are able to intervene, 
perhaps we could avoid that more serious crime from occurring.
    When you have domestic violence, oftentimes you have child 
abuse, you have elder abuse. I mean, there are a lot of areas, 
and we know a lot about crime now, where if at the right time 
intervention strategies took hold, we could maybe do a lot to 
change what ultimately winds up happening when people wind up 
committing a more serious crime and actually going to jail as a 
result of it.
    Senator Brownback. Chief, you describe a situation that, 
really, you have got to have a lot more of us involved. I mean, 
as people in the community, we have got to be willing to reach 
out and to find that person that is troubled or in a difficult 
situation and either get involved in their lives or report it 
at an earlier phase or try to work with people through some of 
these organizations. You have talked with them, and I think 
everything you describe is accurate and good. It is going to 
take a lot more of each of us doing a lot more than we 
currently are, even in the busy lives that we have.
    Mr. Ramsey. It does take a collective effort, and a lot of 
the breakdown is family. I think that the church needs to play 
a stronger role. Certainly, many of the children come from 
dysfunctional families or the family members are drug addicts 
or, what have you, gang members. It is a very complicated 
problem, but it is really going to take a comprehensive 
approach with all of us sitting down together figuring out ways 
to make a difference.
    We have a huge role in this as police, and, again, we need 
to focus on those people that are repeat offenders that are out 
there causing harm to the public, find them and arrest them. So 
I am certainly not saying that that is not part of the process, 
too. It is part of the process, but we also need to have that 
eye on that next generation and on the future and trying to 
prevent as much of this as we possibly can. That is going to 
take the collective efforts of all of us.
    When you have folks that are willing to spend their own 
time, like the orange-hat patrols throughout the city and 
private service organizations that just--I cannot tell you how 
much they mean to our being able to get out there and fight 
crime.
    My hat is off to them because these are volunteers. They do 
not get paid anything, but they are willing to work to make 
their neighborhoods safer, and that is what it takes.
    Senator Brownback. I want to get Mr. Fitzgerald here 
because the topic of the hearing, as we had said some time 
back, was to look at the 911 system.
    You have heard the police chief testify, and you have seen 
his response. Are we going to be able to get ahead of the 
problem there that had been identified with 911? What do you 
think?
    Mr. Fitzgerald. Yes, I believe we are going to get ahead of 
it. What we are doing now, instead of what we have done in the 
past, just as with the communities, the Police Department no 
longer works in a vacuum, the same way with the technology 
efforts. We are looking at integrating our systems not only 
with the Police Department, but with the Fire Department, to 
have that centralized communications center, also looking at 
having our systems connected directly to the Internet and 
reference the information to be passed down.
    There is a lot of things we are doing instead of having a 
quick response in regards to trying to fix it, and we still 
have a long-term problem. We are looking at not only long term, 
we are looking at short term, plus long term, and I assure you 
that basically within the near future, this problem would 
correct it.
    Senator Brownback. Good. Well, that is what we need to have 
is a system that does work in a timely fashion so that people 
can feel comfortable in it.
    Chief, just one other question. Do you have programs 
dealing with gangs? What are you doing to try to stop some of 
that crime from spreading?
    Gangs, as we have heard several people testify, form the 
family nucleus for too many troubled young people. Are there 
things we are trying to do to integrate them back into their 
own families or into a good family situation?
    Mr. Ramsey. Yes, sir. In fact, one program called GREAT is 
a program that we are implementing through the schools. It is a 
program that is used in other cities. It is much like DARE, 
where kids at a young age are taught about the dangers of 
gangs, because, again, part of the strategy is dealing with 
current gang members, but the other part is the up-front 
prevention to keep the youngest members from becoming gang 
members in the future.
    As far as current gang members, working with the Alliance 
of Concerned Men, the group I referred to earlier, they do 
extensive work with current gang members, trying to turn their 
lives around.
    Now, it becomes far more difficult when you are talking 
about the more hardened gang members. Some of them, we need to 
be able to really just focus on and just remove them from 
society because they have gone beyond the point where 
prevention is really going to make a difference. In that case, 
we are working with probation and parole, where we are really 
trying to identify some of those hard-core gang members, look 
at their conditions of probation or conditions of parole, and 
really monitor them and see to it that they are adhering to 
those conditions and do not get back out here and commit other 
crimes.
    So those hardened individuals that want to continually 
create havoc in our communities, we are monitoring them as 
well, but on the prevention side, working with the schools, 
working with churches, working with other groups, trying to 
reach young people and give them alternatives to gangs is 
something that we are very actively involved in. Again, we 
could do more, but we are involved in that.
    Senator Brownback. Thanks for doing that. If anybody is 
watching or listening to this hearing and wants to get involved 
in somebody else's life and help turn it around, they can feel 
free to contact, I am sure, your office or mine, and we will 
put them with whatever organization or person to reach out.
    I am just convinced myself and thankful that we have folks 
like you that do put the uniform on and protect us all, but the 
rest of us are going to have to just get involved a lot more if 
we are going to turn this overall situation around.
    Thank you very much for being here with us today and for 
your testimony and for your work as police chief. I look 
forward to that day, too, when we do not have any homicides. We 
are a long way from it today, although the trends are moving in 
the right direction on violent crime, and we can hope those 
keep going the same way.
    Mr. Ramsey. Well, thank you, Mr. Chairman, and, again, I 
look forward to working with you. You have been a big supporter 
of law enforcement in the past, and I look forward to working 
with you in the future.
    Senator Brownback. We will keep doing it. God bless you 
all.
    Our second panel is James F. Foreman, Coordinator of the 
Orange Hats Patrol, and Kirsten Oldenburg. She is the Editor of 
the Crimemail. It is an online crime newsletter to citizens 
groups that are helping out in the DC crime situation.
    Thank you both very much for joining us. We appreciate your 
volunteer work that you do and appreciate your being willing to 
come here today.
    Mr. Foreman, welcome to you first, and we would be happy to 
receive your testimony. Did you want to give it orally or in 
writing?

  STATEMENT OF JAMES F. FOREMAN,\1\ COORDINATOR, METRO ORANGE 
                           COALITION

    Mr. Foreman. Yes, sir. I would much rather--good evening. 
Glad to be here. I am always glad to come on the Hill. That is 
for sure. Perhaps something will be done because I made a trip 
to the Hill.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Foreman entitled ``Metro Orange 
Coalition, Where Caring People Meet,'' appears in the Appendix on page 
44.
---------------------------------------------------------------------------
    My name is James Foreman. I represent a group called Metro 
Orange Coalition. It is made up of people throughout the 
community, throughout the neighborhoods, everyday people, from 
every walk of life, from every nationality and every religious 
group, and political group, too.
    We have a membership in the Metropolitan Washington Area of 
over 17,000 people, still growing. We are located in 34 
different States in the Nation now, and still growing.
    The organization started in the year of 1986, and it 
started because of a drug problem we were having in the 
neighborhood that I lived in.
    We had an open-air drug market that was running rampant in 
the community. It was growing bigger and bigger every month. 
Nothing and no one was doing anything about it.
    So a couple of fellows and a couple of young ladies in the 
community got together and decided that we had to do something 
about it. So we did. Over a period of time, we did. We got rid 
of that particular open-air drug market, wiped it down. It was 
some of the baddest guys in the world, some of the most heavily 
armed guys in the world, and they were perceived to be that way 
by everybody within the community, but nevertheless they fell.
    From that point on, other communities called trying to find 
out exactly what they could do to get rid of their problem. So, 
in return, we went over and helped this group here, there, and 
pretty soon, we are doing it all over the city.
    At our peak, we had 334 different groups in the 
Metropolitan Washington Area made up of men and women and 
mostly female. As a matter of fact, it was made up of 86-
percent female and only a very few fellows, really. Some of our 
groups were made up of 100-percent female, but they were very 
effective. They got the job done, and they made it work.
    When we started, we had a Police Department that was ready 
and willing to become a part of what we were doing. After they 
found out what we were doing, they were willing to be a part of 
it. After they found out that we were not a vigilante group 
that was willing to come out and by any means necessary take 
the streets back, after they were found we were not about that, 
they came out and became a part of.
    Collectively, together with the Metropolitan Police 
Department, the people that live within those community, within 
the city, DC National Guard, FBI, Park Police, and the Metro 
Police Department--collectively, we together made it happen in 
this town.
    Open-air drug markets since 1995 do not exist in this town 
any longer. It is hard-pressed to find an open-air drug market 
in this town. I think the last one, the FBI knocked off down in 
the Southwest a few months ago. Other than that, open-air drug 
markets do not exist in this town anymore.
    Drugs are being sold. There is no question about that. 
Drug-related crimes still occur. There is no question about 
that, but the people who live in those communities made doubly 
sure that open-air drug markets fell. They came out trying to 
save their children, grandchildren, and the children of the 
communities. They made a concerted effort to do something to 
solve the problem with those communities.
    These are people, working-class people, professional 
people, retirees--everybody pitched in, made it happen, made it 
work.
    It was 4 or 5 years ago, we had a change in the 
Metropolitan Police Department. We had a police chief that made 
it very difficult to operate within town. We had a police chief 
that made it so that we had more trouble with the Police 
Department than we had with the crooks on the street. No 
question about it.
    The chief was very unwilling to work with the citizens of 
the city. He did not work with the citizens of the city. By him 
not doing what he should have done, it passed around to his own 
senior officers, and they likewise fell away, but, 
nevertheless, the people in those communities did not stop 
doing what they were doing. But quite often, we had no help at 
all in a situation from the Metropolitan Police Department. If 
we needed help, we had to call the Park Police. We had to call 
the Metro Police. We had to call the FBI to assist and help us 
on the streets.
    It got so that we stopped calling the Metropolitan Police 
Department at all because we were not receiving services from 
the Metropolitan Police Department. This was the largest 
volunteer group in the city, and they turned their backs on the 
group and the city, but, nevertheless, we never turned out 
backs on the Metropolitan Police Department because a lot of 
the individual officers that worked the beats, they rode the 
beats, they in return--they still offered their service, 
irregardless of what they were instructed by their superiors. 
They, nevertheless, offered their service to the community, and 
they kept it going and they are still doing it.
    The Metropolitan Police Department today--the leadership of 
the Police Department today, I do not know. Again, I do not 
know him. The chief of police, I met for the first time today 
here. His assistant, I met for the first time today here. I do 
not know him. I do not know any of them really.
    I called a couple of times to request a meeting with them, 
but I have not had an opportunity as of yet to meet with the 
chief of police or the hierarchy of the Metropolitan Police 
Department, hoping that some day soon, we probably will.
    Senator Brownback. Well, hopefully, we will crack through 
that for you here.
    Mr. Foreman. That is right, no question about it, but, 
nevertheless, though, irregardless of whether we meet with them 
or not, we are still not going to stop working the street 
because those are our communities, our children, our homes, and 
our businesses within those communities. So we must keep it 
going.
    We found out one thing, that people can make it work. 
People are the key ingredients to making it work, and without 
the people that live in those communities being involved, it 
will not work. And the best thing about it, the people who live 
in those communities will get involved if you show them how to 
get involved. There is no question about it, and this is 
exactly what we do.
    Senator Brownback. Good. Thank you very much, Mr. Foreman, 
and that is absolutely right.
    For too long, I think we have tried to shove responsibility 
of things we are responsible for off to somebody else or some 
other entity. That is why we have paid our taxes, all of which 
are important, but, nonetheless, we have got to take 
responsibility and do a lot our selves.
    Ms. Oldenburg, thank you for joining us today. I appreciate 
your being here, and I appreciate your volunteer work that you 
have done and look forward to your testimony.

STATEMENT OF KIRSTEN OLDENBURG,\1\ EDITOR, CRIMEMAIL, DC POLICE 
                        SERVICE AREA 109

    Ms. Oldenburg. I did prepare a statement, and I have 
provided it to your office, but I would like to just provide 
you with a summary, an oral testimony.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Oldenburg appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Senator Brownback. Please.
    Ms. Oldenburg. I have been a resident of Capitol Hill for 
15 years, and I have been working with the police in my 
neighborhood for almost a decade. Most of this was under what 
was then called Beat 26, and we were the first organized 
community group in DC around a police beat. That was mainly due 
to the efforts of a Sergeant Wally Bradford, who at those days 
was an anomaly in the Police Department in that he believed in 
community policing.
    Now I volunteer about 10 hours of my time a week to what is 
called PSA 109. Much of this time is consumed in operating an 
E-mail crime alert system that I started more than 2 years ago, 
and we now have over 500 subscribers. I send out a message 
about once a week, depending on criminal activity in our 
neighborhood. We also have lively discussions among subscribers 
of issues of concern.
    In addition, I publish a paper newsletter, unfortunately 
not often enough these days to properly inform the 4,000 
households of our PSA of what is happening around them.
    We also have a web site where people can go and, for 
instance, view a map that we produce once a month showing where 
crime has occurred and what type of crimes have occurred in the 
PSA. We have several orange-hat patrols. We maintain statistics 
on the PSA, and we are now trying to put together a court-watch 
group because one of the problems we have in DC is that the 
pieces of the criminal justice system are not well linked 
together. Once an arrest is made, the police hand the case over 
to the court, and we lose track of what is happening. Often, 
the police do as well. So we are trying to sort of link those 
two pieces of the system together.
    As you know, a year ago, MPD switched from the beat system 
to the PSA system, and I really believe that this has caused a 
major improvement from my perspective on the street. It 
signaled a major policy shift within the Department toward 
community policing. It put more officers on the street, and 
officers who stay in their assigned PSAs. Sergeants now have 
the authority to make critical resource decisions based on what 
is happening in the PSA, but I do feel that the PSAs suffer 
today from a lack of proper leadership, staffing levels, and 
training to tackle the kind of issues that the PSA model 
suggested they would.
    I think the basic problem is that MPD officers are trained 
to be reactive, in other words to chase after criminals, rather 
than proactively work on the problems that foster criminal 
behavior in the neighborhood.
    I also do not think they well understand the long-term 
coincidences of the actions they take in the community to the 
community. Right now many of the people in our community, our 
PSA, do not feel that the officers are making much effort to 
get to know the community, and, from my perspective, without 
this community policing just cannot work.
    Another issue is that our PSA has proven to be too large 
and too diverse to support a functioning community organization 
on the personal level that we were able to do with Beat 26. Our 
PSA is too large for even those of us who are quite active to 
get to know or even recognize all of the officers that are 
assigned to our PSA.
    I think that over time and with commitment from MPD and the 
community that these problems with the PSAs will be solved, but 
as an operator of an E-mail system that enables the community 
to discuss issues that bother them, I am most concerned today 
with the Department's communication and outreach skills. And 
these affect the way the community is willing to come forward 
and work cooperatively with the police.
    I want to give you a number of examples. In PSA 109, we 
have a designated block captain on every block, but the police 
do not use these people as a major conduit of information from 
them to the community or vice versa.
    In PSA 109, as you know, we have the E-mail system. Well, 
there are three other PSAs on Capitol Hill that also have E-
mail systems now. We probably have a combined 1,000 people 
linked together online. However, police officials rarely 
voluntarily use this resource as a way to get out information 
to the community, nor have they set up a system to assure that 
we get timely information.
    The substation on Capitol Hill does provide us with updates 
on reported crime, but only when Officer Rita Hunt is 
available. When she is not there, the information flow stops, 
and as you know, crime does not.
    In June, PSA 109 was hit with 28 burglaries, a record for 
us in the last year and a half. Our PSA sergeant alerted us to 
this in mid-June. There was an arrest in July, but we know that 
in July burglaries are continuing. Incoming E-mail messages are 
starting to reflect a frustration with a lack of information on 
what the police are doing to handle this problem. People are 
getting tired of hearing about what they can do to prevent 
burglaries and want to know what the police are doing.
    To me, this is an example of police failure to volunteer 
information about an issue that they must understand that is of 
concern to the community, and let me add, we have the district 
commander, the First District substation captain, our PSA 
sergeant, and several officers on our E-mail list. So they can 
read what is of concern on a weekly basis to the community.
    Back in April and May, we had a lot of discussion on the E-
mail list about the drug activity, drug markets we have in our 
PSA, and lack of any evidence that police were doing anything 
about them. Finally, Commander McManus of the First District 
came forward, and he told us that he had arranged for a drug 
enhancement unit to operate in our area. And this pleased 
people immensely. However, all this goodwill has now eroded 
because 2 months later residents never saw any increased police 
activity.
    The markets are still up and operating, and so this is a 
case of police who initially did the right thing and responded 
to the community's concerns, but now dropped the ball by not 
periodically coming forward with information on progress or 
lack thereof.
    I would like to conclude with an example of what I think 
was a tremendous officer with really good communication skills. 
He is not an MPD officer. He is a U.S. Park Police bicycle 
officer. This Officer Godfrey is assigned to the parks on 
Capitol Hill. He is now a subscriber to our E-mail via his 
personal E-mail, and when somebody submits information or there 
is a discussion on the E-mail about something that is in his 
jurisdiction, he immediately gets back to us on suggestions of 
how he could improve the situation or requesting more 
information so that he can track down what happened. I feel 
that he is doing a tremendous PR job for the U.S. Park Service, 
but he also does tremendous follow-through. So people are 
becoming very confident of his capabilities.
    I would like to conclude by saying that I think that MPD is 
definitely moving in the right direction, and, obviously, as a 
community, we wish it would move quicker, but we know these 
kind of changes just cannot happen overnight, but I hope that 
they will take a real serious look at their communication and 
outreach efforts with the aim of developing credibility in the 
community. I think they will get a lot back once they do that.
    Thank you.
    Senator Brownback. Thank you, Ms. Oldenburg, for that 
testimony.
    As I stated to the police panel, we are all very 
appreciative each and every day of them getting up and putting 
the uniform on.
    Ms. Oldenburg. I agree with you. We have great officers who 
work in our PSA, and I am trying to generalize. We have great 
individuals who we know of.
    Senator Brownback. We all appreciate that.
    What we are searching for here is that if we are to get 
crime down in this country, in this Nation, it is not just a 
matter of hiring more police officers. We have all got to get 
more involved with it, and the reason why we brought both of 
you forward today is to recognize your efforts, volunteer 
efforts of people who are willing to get involved and the 
people around you to get involved. We have got to integrate 
those efforts of people volunteering along with the Police 
Department and all the efforts that they do by putting on the 
badge and going out and putting their lives on the line each 
and every day.
    I also highlight it from the standpoint of we are not 
powerless in this Nation. Too much of the time, I think people 
view themselves as powerless to be able to get anything done. I 
think both of you are testimony that that is not the case. You 
can do something. We can work together and get this situation 
in a better case, and we need to get it much better, but each 
of you have helped in preventing crime and getting it 
decreased. So, for that, I commend both of you and thank you 
for what you are doing.
    In looking at that, Mr. Foreman in particular, you note the 
number of people that you have involved in the Orange 
Coalition. Could you just describe for the people here today 
what they do every night? What do folks go out and do?
    Mr. Foreman. Well, usually, after they get home from work, 
those who work, and those who are retired, after they wake up 
from their evening nap, they usually put the orange hat on 
their head and they head out towards the street corner.
    Senator Brownback. Together? I mean, there will be several 
together or an individual?
    Mr. Foreman. Usually, groups together. We try to make 
doubly sure that there will be no individuals on the street by 
themselves at any given time, while they are wearing the orange 
hat on their head on the street corners.
    We usually have groups--some groups are of different sizes. 
Some may have 20. Some groups may be 30. We have even some 
groups that we have as high as hundreds at one time in a group 
throughout the community, and, usually, what we usually do--
most areas, we do more standing than walking. We usually stand 
on different corners throughout the community because, you 
know, like I say, as long as you are standing you can see 
everything. As long as you are moving, you are out of sight, 
you are out of mind. So you mean nothing to anyone. So we 
usually stand throughout the community.
    The groups usually have radios that they usually keep with 
every group throughout the community. As a matter of fact, in 
some groups, everybody in the group does have a radio, really, 
though, and we use video camcorders on the street. We use 
cameras. We use everything on the street to deter those who are 
coming to the community to do harm and wrong, and we usually 
set the video camcorders up on the sidewalk within the 
community, as those who come looking for drugs in the community 
are right around--they have to ride around through cameras the 
whole trip throughout the community. So they have a tendency 
not to stay around. They have a tendency to leave, and leave 
quick.
    We found out one thing. With this setup that we utilize, 
most drug markets fall and they fall quick.
    Senator Brownback. What is that?
    Mr. Foreman. Most drug markets, they cease to operate, and 
they case to operate very, very rapidly, really within a few 
days, because we found a long time ago that the average guy 
that is selling drugs needs to sell drugs and need to sell the 
drugs quickly, and he needs to pay his bill for the drugs. He 
needs to pay the bill for the drugs that he has in his 
possession, and if he cannot sell within my community, he has 
to leave. What we do, we stop the customer from getting to the 
guy who is selling drugs. That is our main purpose out there, 
to stop the customer from getting to the drug dealer. We put a 
buffer in between those two. As long as we are there, the 
customer will not come in because most of the customers are 
people like each and every one of us. We are the customers. We 
are working people, work for a living, who make a payroll, and 
once a month, every week, whatever the case may be, these are 
the people who buy drugs.
    These are the people who ride up into people's communities 
where they do not live to buy drugs, and these are the people 
that we put the cameras on. These are the people that ride 
through our cameras on the street, and these are the people who 
ride straight through the neighborhoods and stop buying drugs 
in that particular neighborhood, and 2, 3, 4 days of this, no 
sale by the drug dealer, he cannot operate any longer. He has 
to leave. He must go someplace where he can sell his drugs.
    He owes a bill. He must pay his bill on time. If he does 
not pay his bill on time, he is in trouble, and whoever he owes 
money to is going to deal with him harshly. So he will not stay 
in that community.
    We know we can, wherever we go, within a few days--any drug 
market can fall. We found out one thing, with the help of the 
Police Department, no question about it, with the help of any 
agency that we can get to help, it makes it much easier, but we 
know without the commitment of the people who live in those 
communities, it is not going to happen.
    In most instances, if the people in the community are not 
involved, the police cannot get into that community because 
most of the communities are not open to the Police Department. 
We usually go in and we usually open the community up. The 
police come in and deal with the people once we go in because 
it is easier for us to open it up than it is for the Police 
Department to open it up because, in most cases, most 
communities do not trust them, do not want to deal with them, 
and are very leery of them. So we usually go and open it up, 
and once the Police Department comes in, they usually end up 
with a great working agreement with the people who live in that 
community. They usually get along very well after that.
    We do what we do, and we do it very well, and that is good 
because people--we found out one thing. The great strength in 
fighting crime is people in the communities. We can put 20,000 
police in this city on the street, and they cannot stop it. 
They do not live there. They do not have that great commitment 
that the people who live in those communities have for their 
own community. They do not have that great commitment for a 
person's own son and daughter or grandson and granddaughter as 
a person who lives there do.
    Our police officers come in, and they do a great job, no 
question about that, but the hard-core commitment is still not 
there. And it cannot be there. They live someplace else. They 
have to have a commitment for their own community, and I hope 
they do go and work within their own communities, but at the 
same time, we must have the people in the communities. And the 
best thing about the whole thing, the people in the community 
want to do--they want to work. They have a big problem.
    Most communities, people do not know how to, and we usually 
go in and show them how to. Usually, once you go in and show a 
person how to do it, you cannot stop them from doing it after 
that, no question about it, but you can mention one thing. When 
you go up before what people perceive to be the baddest guys in 
the world, the most heavily armed guys in the world, everybody 
perceives that every kid selling drugs on the street is heavily 
armed or his comrades around him are heavily armed. In a lot of 
cases, it is true, no question about that. They do not be on 
the street naked. That is for sure.
    But at the same time, they are scared to death of the 
people who live there. The people who live in those 
communities, the crooks that operate in those communities are 
afraid of the people. Whenever the people step up, they step 
back every time. Every time.
    We go out on the street. Nobody in the group is of this age 
here. Everybody in the group--well, your age, yes--are older in 
the group, and we have people in the group from 45 all the way 
up through 80. This is the main bulk of the group, no question 
about it. In later years, we have had some younger folks come 
on, but mainly it was old-timers who made it happen, people who 
could not pick a physical fight with anyone at no given time. 
But seven, eight senior citizens walking in a community or 
standing in the community can wipe a drug market out just by 
mere presence along.
    Most people do not know and do not realize that the crooks 
on the street are afraid of them, scared to death of them 
really, providing you do it in a controlled situation and do 
not get yourself in trouble.
    Senator Brownback. That is the point, I guess, that I 
wanted to emphasize with you, too, and I appreciate it, Mr. 
Foreman, that--there is an old saying, and I am paraphrasing, 
that the only way that evil triumphs is for good, not to step 
forward. So, if people just step back and keep back, their 
communities will continue to go down.
    Mr. Foreman. No question.
    Senator Brownback. If they will step forward, they are not 
powerless in this system, and I appreciate you for giving them 
the organization, the vehicle to do that.
    Ms. Oldenburg, I understand you are looking at a new E-mail 
project to track the criminals released from the DC criminal 
justice system. Is that correct?
    Ms. Oldenburg. Well, yes, that is partly it, or at least to 
let people know what is happening. Part of it is just the kind 
of information that we can get out to the community. I mean, 
people on our list--they are constantly saying that it gives 
them a sense of community to be belonging to it, even though it 
predominantly provides them with bad news, but it is a 
phenomena that the more news you have about your community, the 
better armed you feel to protect yourself and be preventive in 
your actions.
    So one of the things that happens in DC is that the street 
officers, the PSA officers operate in the immediate, you know, 
what is happening today, taking care of what is happening 
today.
    Once, for instance, somebody is arrested or even once a 
crime is committed, it moves out of the arena of the PSA, and 
if it is a crime that has been committed, it is all of a sudden 
turned over to a set of detectives who are removed from the PSA 
in large part.
    So the information of what is happening about--we had nine 
homicides in PSA 109 in the last year and a half. We rarely can 
get any information about what the status is of those 
homicides. As far as I know, not one of them has been solved. 
Seven of them are drug-related. So that information sort of 
moves out of our arena. We can go chase it, but it does not get 
to us. So that is one thing.
    The activity moves elsewhere once the crime is committed, 
and the information moves. The other thing is that once an 
arrest occurs and it becomes part of the court system, part of 
the prosecutor's office and through the court system, again, 
there is no tracking of this person being arrested and as they 
go through the process. The prosecutors have a system, but we 
cannot tap into that. So we cannot readily track what is 
happening to the people who get arrested in our community.
    We know they normally get out on personal recognizance once 
they are arrested. So they come right back to the community and 
continue to commit the crimes that they committed before they 
were arrested, waiting for their court hearing on the previous 
crime.
    So we want to be able to track that activity, what happens 
when people get into the court system and the resolution of 
court cases should that occur. We are starting to be better at 
that as a community. PSA 108 and 106 seem to have established 
the sort of connections they need to track a criminal beyond 
the police, better than we have in 109 at this point.
    Senator Brownback. Good.
    Thank you both very much. I also want to thank the Police 
Department for all the work that they do. Crime is going down, 
but we have got a long ways to go to get it in the situation 
that we need to.
    I appreciate the volunteer efforts of a lot of people in 
trying to get that situation better improved as well.
    Mr. Foreman. I would like to say one thing.
    Senator Brownback. Yes, Mr. Foreman.
    Mr. Foreman. Our efforts in the Metro orange-hat group, we 
have not so far wrote one proposal for any money from anyone, 
except for the Heritage Foundation. They forced money upon us, 
and they made us take it. We did not want it, but they made us 
take it, anyway, but other than that, there are no government 
funds. Everything that pertains to the organization is self-
funded by people who live in those communities, throughout the 
area.
    We are writing up proposals, do not want to--we always say 
as long as it is your problem, take care of your own problem, 
and so we take care of our own problem within our own 
communities, anyway.
    Thank you.
    Senator Brownback. Thank you all very much, and thank you 
all for attending today as well.
    The hearing is adjourned.
    [Whereupon, at 4:08 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] TH640.001

[GRAPHIC] [TIFF OMITTED] TH640.002

[GRAPHIC] [TIFF OMITTED] TH640.003

[GRAPHIC] [TIFF OMITTED] TH640.004

[GRAPHIC] [TIFF OMITTED] TH640.005

[GRAPHIC] [TIFF OMITTED] TH640.006

[GRAPHIC] [TIFF OMITTED] TH640.007

[GRAPHIC] [TIFF OMITTED] TH640.008

[GRAPHIC] [TIFF OMITTED] TH640.009

[GRAPHIC] [TIFF OMITTED] TH640.010

[GRAPHIC] [TIFF OMITTED] TH640.011

[GRAPHIC] [TIFF OMITTED] TH640.012

[GRAPHIC] [TIFF OMITTED] TH640.013

[GRAPHIC] [TIFF OMITTED] TH640.014

[GRAPHIC] [TIFF OMITTED] TH640.015

[GRAPHIC] [TIFF OMITTED] TH640.016

[GRAPHIC] [TIFF OMITTED] TH640.017

[GRAPHIC] [TIFF OMITTED] TH640.018

[GRAPHIC] [TIFF OMITTED] TH640.019

[GRAPHIC] [TIFF OMITTED] TH640.020

[GRAPHIC] [TIFF OMITTED] TH640.021

[GRAPHIC] [TIFF OMITTED] TH640.022

[GRAPHIC] [TIFF OMITTED] TH640.023

[GRAPHIC] [TIFF OMITTED] TH640.024

[GRAPHIC] [TIFF OMITTED] TH640.025

[GRAPHIC] [TIFF OMITTED] TH640.026

[GRAPHIC] [TIFF OMITTED] TH640.027

[GRAPHIC] [TIFF OMITTED] TH640.028

[GRAPHIC] [TIFF OMITTED] TH640.029

[GRAPHIC] [TIFF OMITTED] TH640.030

[GRAPHIC] [TIFF OMITTED] TH640.031

[GRAPHIC] [TIFF OMITTED] TH640.032

[GRAPHIC] [TIFF OMITTED] TH640.033

[GRAPHIC] [TIFF OMITTED] TH640.033



                                  <all>

</pre></body></html>
